TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                          RECOVERY ACT


                  Millions of Dollars in Questionable Qualified
                  Motor Vehicle Deductions Are Being Allowed



                                             April 15, 2011

                                Reference Number: 2011-41-037




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information



  Phone Number | 202-622-6500
  Email Address | TIGTACommunications@tigta.treas.gov
  Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


MILLIONS OF DOLLARS IN                              considers excessive, it appears that some
QUESTIONABLE QUALIFIED MOTOR                        individuals may have erroneously been allowed
VEHICLE DEDUCTIONS ARE BEING                        QMV deductions for vehicles that were not
ALLOWED                                             purchased.
                                                    In addition, the process to identify potentially
                                                    erroneous QMV deductions is not effective. The
Highlights                                          IRS failed to identify 4,257 individuals claiming
                                                    what the IRS defines as an excessive QMV
Final Report issued on April 15, 2011               deduction during tax return processing so it
                                                    could hold and prevent the possible issuance of
Highlights of Reference Number: 2011-41-037         erroneous tax refunds. These individuals
to the Internal Revenue Service Commissioner        claimed a total of more than $151.1 million in
for the Wage and Investment Division.               QMV deductions. TIGTA also identified
                                                    473 cases for which information that the IRS
IMPACT ON TAXPAYERS                                 maintains identifies the individuals as ineligible
The American Recovery and Reinvestment Act          to claim about $1.02 million in QMV deductions
of 2009 (Recovery Act) provides individuals with    they were allowed. These individuals were in
a Qualified Motor Vehicle (QMV) deduction,          prison, deceased, or underage.
which is an additional deduction for State sales    Finally, the processes the IRS established to
tax and excise tax on the purchase of certain       verify the 3,026 QMV deductions the IRS
motor vehicles. The Internal Revenue Service        identified as having an excessive claim are also
(IRS) cannot verify whether individuals claiming    resulting in the erroneous release of tax refunds.
a QMV deduction are entitled to the deduction at    Our testing identified that the IRS does not
the time their tax returns are processed.           ensure Tax Examiners are taking the necessary
Inadequate verification of the QMV deduction        steps to verify the QMV deductions.
increases the risk that taxpayers will be allowed
to claim excessive QMV deductions.                  WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                             TIGTA recommended that the Commissioner,
                                                    Wage and Investment Division, ensure Tax
This audit was initiated because TIGTA is           Examiners review the 1,324 excessive QMV
required to monitor the IRS’s implementation        deduction claims identified by TIGTA. In
of Recovery Act provisions. The objective of our    addition, a review should be conducted of all tax
review was to assess the effectiveness of the       returns identified as a result of an excessive
IRS’s efforts to identify individuals erroneously   QMV deduction that met examination criteria but
claiming a QMV deduction. The expiration date       were closed with no reduction in the QMV
for the QMV deduction was December 31, 2009.        deduction to ensure Tax Examiners are taking
WHAT TIGTA FOUND                                    correct actions prior to closing cases. Finally,
                                                    the IRS should review the tax returns of the
The IRS cannot verify whether individuals           473 individuals TIGTA identified as being in
claiming a QMV deduction are entitled to the        prison, deceased, or underage to evaluate
deduction at the time their tax returns are         whether these individuals qualify for the
processed. The reason is that individuals do not    deduction.
have to provide any third-party documentation to
support that they actually purchased a qualified    The IRS agreed with all five of the
motor vehicle and, if a qualified vehicle was       recommendations. The IRS plans to review all
purchased, the amount paid in sales and excise      of the cases TIGTA identified, and those cases
taxes.                                              warranting examination will be selected for audit.
                                                    The IRS also plans to revise the Internal
Based on our review of a statistically valid        Revenue Manual procedures for the Tax
sample of 150 individuals allowed a QMV             Examiners reviewing QMV deductions.
deduction of less than the amount the IRS
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 15, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Millions of Dollars in Questionable Qualified
                                 Motor Vehicle Deductions Are Being Allowed (Audit #201040108)

 This report presents the results of our review to assess the effectiveness of the Internal Revenue
 Service’s (IRS) efforts to identify individuals erroneously claiming the Qualified Motor Vehicle
 deduction. This audit is part of our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Erroneous and Improper Payments and Credits.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 Management’s complete response to the draft report is included in Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                      Millions of Dollars in Questionable
                                      Qualified Motor Vehicle Deductions
                                               Are Being Allowed




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Cannot Verify the
          Qualified Motor Vehicle Deduction at the Time a
          Tax Return Is Processed................................................................................ Page 4
          The Process to Identify Potentially Erroneous Qualified
          Motor Vehicle Deductions Is Not Effective ................................................. Page 6
                    Recommendations 1 and 2: .............................................. Page 7

          Verification Is Inadequate, Which Resulted in the
          Allowance of Excessive Qualified Motor Vehicle
          Deductions .................................................................................................... Page 8
                    Recommendation 3:........................................................ Page 9

                    Recommendation 4:........................................................ Page 10

          Erroneous Qualified Motor Vehicle Deductions Were
          Allowed to Ineligible Individuals Even Though the
          Internal Revenue Service Had Data to Identify These
          Claims During Tax Return Processing ......................................................... Page 10
                    Recommendation 5:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Management’s Response to the Draft Report ...................... Page 17
        Millions of Dollars in Questionable
        Qualified Motor Vehicle Deductions
                 Are Being Allowed




               Abbreviations

IRS      Internal Revenue Service
QMV      Qualified Motor Vehicle
TIGTA    Treasury Inspector General for Tax Administration
                                Millions of Dollars in Questionable
                                Qualified Motor Vehicle Deductions
                                         Are Being Allowed




                                           Background

The American Recovery and Reinvestment Act (Recovery Act)1 provides individuals with a
Qualified Motor Vehicle (QMV) deduction, which is an additional deduction for State sales tax
and excise tax on the purchase of certain motor vehicles.
For Tax Year 2009 only, individuals could deduct State
                                                               The QMV Deduction was for
sales tax and excise tax for qualified motor vehicle           Tax Year 2009 only and was
purchases after February 16, 2009, and before                    intended to stimulate the
January 1, 2010. The expiration date for the QMV                   sales of automobiles.
deduction was December 31, 2009. A qualified motor
vehicle is defined as an automobile or light truck with a
gross vehicle weight rating of 8,500 pounds or less, a motorcycle, or a motor home (no weight
limit).
The QMV deduction is claimed on either the Standard Deduction for Certain Filers (Schedule L)
or on line 7 of Itemized Deductions (Schedule A). These schedules are then filed with the
individual’s U.S. Individual Income Tax Return (Form 1040 or 1040A). The amount of
qualified taxes is limited to the first $49,500 of the purchase price of the new vehicle.
Individuals can take a QMV deduction for more than one vehicle. For those individuals residing
in States with no sales tax (Alaska, Delaware, Hawaii, Montana, New Hampshire, and Oregon)
they are entitled to deduct other fees or taxes imposed by the State or local government. These
fees or taxes that qualify must be assessed on the car’s sales price or as a per unit fee.
The amount of the QMV deduction reduces an individual’s taxable income and taxes owed. The
QMV deduction is phased out for individuals with a modified adjusted gross income2 between
$125,000 and $135,000 for single individuals and between $250,000 and $260,000 for married
individuals filing a joint tax return. Individuals with modified adjusted gross income equal to or
above the phase-out amounts are not eligible for the QMV deduction. Figure 1 shows the
number of individuals claiming the QMV deduction by schedule type and the amounts allowed
through November 12, 2010.




1
 Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
 Modified Adjusted Gross Income is calculated by adding certain items to the Adjusted Gross Income that were
excluded, such as foreign housing deductions and savings bond interest.
                                                                                                        Page 1
                                  Millions of Dollars in Questionable
                                  Qualified Motor Vehicle Deductions
                                           Are Being Allowed



                            Figure 1: QMV Deductions for Tax Year 2009
                 Schedule                           Tax Returns                    Total QMV Deductions
                Schedule A                          2,268,421                         $3,846,317,037
                Schedule L                          2,104,677                         $3,383,703,052
                   Totals                           4,373,098                         $7,230,020,089
                                                    3
    Source: IRS Individual Returns Transaction File Data through Cycle 46 (November 12, 2010).

The 2010 Filing Season review identified excessive QMV deductions that were not
identified by the IRS
The Treasury Inspector General for Tax Administration (TIGTA) 2010 Filing Season report4
identified 2,933 individuals with more than $95.8 million in QMV deductions on Schedule A
that had QMV deductions with a dollar amount considered by the Internal Revenue Service
(IRS) as being excessive. The IRS established an excessive dollar figure to identify potentially
erroneous QMV deductions. The IRS implemented controls to identify and freeze the refund for
individuals claiming a QMV deduction in excess of a specific dollar amount on Schedule L.
Once the freeze is applied, the tax return is sent to an examiner to determine if the QMV
deduction is correct (i.e., the individual purchased a new vehicle). However, similar controls
were not implemented to identify excessive QMV deductions claimed on Schedule A.
We recommended that if the QMV deduction is extended, the Commissioner, Wage and
Investment Division, should ensure programming is implemented to identify and freeze refunds
of individuals claiming more than a specific dollar amount in QMV deductions on Schedule A.
This programming should mirror the programming already in place to identify potentially
excessive QMV deductions on Schedule L. In addition, Tax Examiners should review the
2,933 individuals whom the TIGTA identified as claiming the QMV deduction on Schedule A
that was excessive to ensure these individuals qualify for the deduction. IRS management
agreed with this recommendation.
Recovery Act activities require a high level of scrutiny, and taxpayer dollars spent on economic
recovery must be subject to unprecedented levels of transparency and accountability. Federal
agencies are required to ensure Recovery Act funds are used for authorized purposes and that
appropriate measures are taken to prevent fraud, waste, and abuse. As such, the TIGTA is
required to monitor the IRS’s implementation of Recovery Act provisions. This audit was
conducted to meet those requirements.


3
  The IRS database that contains data transcribed from initial input of the original individual tax returns during
return processing.
4
  Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season (Reference
Number 2010-41-128, dated September 30, 2010).
                                                                                                                Page 2
                            Millions of Dollars in Questionable
                            Qualified Motor Vehicle Deductions
                                     Are Being Allowed



This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and the Submission Processing Site in Fresno, California, during the period
September 2010 through January 2011. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                             Millions of Dollars in Questionable
                             Qualified Motor Vehicle Deductions
                                      Are Being Allowed




                                  Results of Review

The Internal Revenue Service Cannot Verify the Qualified Motor
Vehicle Deduction at the Time a Tax Return Is Processed
The IRS cannot verify whether individuals claiming a QMV deduction are entitled to the
deduction at the time their tax returns are processed. This is a result of individuals not having to
provide any third-party documentation supporting that they actually purchased a qualified motor
vehicle and, if a qualified vehicle was purchased, the amount paid in sales and excise taxes.
Instead, the IRS relies on individuals claiming the QMV deduction to comply with tax laws and
to provide correct information on their tax returns. This includes accurately reporting income
and claiming only the tax benefits and credits to which they are entitled. Figure 2 illustrates key
requirements for claiming the QMV deduction that the IRS cannot verify at the time a tax return
is processed.
             Figure 2: Key Requirements for Claiming the QMV Deduction
                                                               Able to Verify Requirement
                                                                 When the Tax Return
                         Key Requirement                             Is Processed?
             Was a Motor Vehicle(s) Purchased?                           No
             Was a Motor Vehicle Purchased Between                       No
             February 16, 2009, and January 1, 2010?
             Motor Vehicle Purchase Price.                               No
             Amount of Sales/Excise Tax Paid.                            No
           Source: IRS procedures and Tax Form instructions.

Further, the limited information that is required to be provided by an individual in support of a
QMV deduction depends on the tax schedule the individual uses to claim the deduction.
Figure 3 provides a comparison of the information requested to be provided to claim the QMV
deduction on either Schedule A or Schedule L.




                                                                                              Page 4
                            Millions of Dollars in Questionable
                            Qualified Motor Vehicle Deductions
                                     Are Being Allowed



                Figure 3: Information Requested on Schedules A and L
                                                     Data Requested on Schedule?

                                                       Schedule A        Schedule L
                  Vehicle Purchase Price                  No                Yes
                  Sales/Excise Tax Paid                   No                Yes
                  Sales Tax Claimed                       Yes               Yes
                Source: Tax Year 2009 Schedule A and Schedule L Instructions.

Some QMV deductions may have been for vehicles that were not purchased
We reviewed a statistically valid sample of 150 individuals allowed a QMV deduction of less
than the amount the IRS considers excessive. To determine if a new vehicle was purchased, we
used third-party vendor information that the IRS uses when examining questionable QMV
claims. This information is provided to the third-party vendor from State Departments of Motor
Vehicles and/or from other independent sources that have access to public records. However, the
third-party information is limited to those States that provide vehicle records to the vendor. For
those individuals in States that do not report vehicle information, we attempted to contact the
Departments of Motor Vehicles within those States to confirm the purchase of a new vehicle.
Our review identified:
•   65 individuals purchased a new vehicle.
•   60 individuals for whom the State or third-party vendor had no record of a new vehicle
    purchase. These individuals claimed $64,934 in QMV deductions.
•   25 individuals for whom we were unable to obtain information as to whether they purchased
    a new vehicle because they live in States that did not provide vehicle records to the
    third-party vendor and the Departments of Motor Vehicles had not responded to our requests
    for verification as of January 12, 2011.
We did not project a noncompliance rate to the population using this sample because of the
potential for omissions or errors in this type of third-party reporting.
The QMV deduction expired on December 31, 2009, and has not been extended by law. As
such, we are not including specific recommendations to address the IRS’s inability to verify the
QMV deduction at the time a tax return is processed. However, if similar legislation is enacted
in the future, the IRS should require individuals to provide more information on their tax returns
in support of the vehicle deduction. For example, the IRS could require individuals to provide a
vehicle identification number or the name and address of the dealer from which the vehicle was
purchased. Requesting additional information could serve as a deterrent for those individuals
who may intend to claim erroneous vehicle-related credits and/or deductions.

                                                                                             Page 5
                           Millions of Dollars in Questionable
                           Qualified Motor Vehicle Deductions
                                    Are Being Allowed



The Process to Identify Potentially Erroneous Qualified Motor Vehicle
Deductions Is Not Effective
Although the IRS recognized the potential for individuals to abuse the QMV deduction, the
process for identifying and working the potentially abusive QMV deductions was not effective.
As we reported in our 2010 Filing Season report, the IRS did not establish a process to identify
individuals who use Schedule A to claim QMV deductions totaling more than the dollar amount
the IRS used to identify potentially erroneous claims.
During the 2010 Filing Season review, we identified 2,933 individuals with more than
$95.8 million in QMV deductions. These deductions were claimed during the period January 1
through May 28, 2010. The IRS responded that it would initiate action to verify these
deductions. As of December 15, 2010, the IRS has not verified the accuracy of these QMV
deductions. The IRS noted that Tax Examiner review of these excessive claims will not begin
until July 2011, which for some individuals would be 19 months after the QMV deductions were
allowed.
Additional analysis of tax returns filed between May 29 and November 12, 2010, with QMV
deductions claimed on Schedule A identified another 462 individuals with excessive deductions.
The IRS implemented controls to identify and freeze the refund for individuals claiming a QMV
deduction in excess of a specific dollar amount on Schedule L. Similar controls, however, were
not implemented to identify excessive QMV deductions claimed on Schedule A. Because these
controls were not in place, these individuals received their tax refunds, unlike those individuals
with excessive QMV deductions claimed on Schedule L. For the Schedule L filers, the IRS
procedures are to hold these tax refunds until a Tax Examiner verifies the legitimacy of the QMV
deduction to prevent the issuance of a potentially erroneous refund.
On December 29, 2010, we notified IRS management of these 462 individuals claiming more
than $28 million in QMV deductions using Schedule A. We recommended that the IRS obtain
supporting documentation for the purchase of new vehicles by the 462 Schedule A filers who
were allowed excessive QMV deductions to determine whether the deductions were permissible.
IRS management agreed with the recommendation and will ensure the Director, Reporting
Compliance, Wage and Investment Division, coordinates with the Director, Campus Reporting
Compliance, Small Business/Self-Employed Division, to ensure these cases are reviewed, and
cases warranting examination will be selected for audit.
We plan to monitor the IRS’s progress in verifying the 3,395 potentially erroneous Schedule A
QMV deductions we identified and will report the amount of increased tax liability for those
QMV deductions disallowed in our annual filing season reports.




                                                                                           Page 6
                           Millions of Dollars in Questionable
                           Qualified Motor Vehicle Deductions
                                    Are Being Allowed



Processes are not ensuring excessive deductions claimed on Schedule L are
identified
As of November 12, 2010, we identified 862 QMV deductions claimed on Schedule L with
deduction amounts above the level which the IRS considers potentially erroneous that were not
sent to Tax Examiners for verification. This resulted from Tax Examiners not inputting into IRS
computers the required Unallowable Code for these tax returns. As a result, these tax returns
were not identified as needing verification. The Unallowable Code is necessary to identify tax
returns with potential errors that require verification by a Tax Examiner.
The QMV deductions associated with these 862 claims totaled more than $27.3 million. It
should be noted that because these tax returns were not correctly identified for QMV deductions,
the verification of the tax refunds associated with these 862 claims were not held to prevent the
possible issuance of an erroneous tax refund.
We alerted IRS management of our preliminary results on November 8, 2010, and recommended
that QMV deductions for these individuals be verified to ensure these individuals qualify for the
deduction. IRS management agreed with the recommendation and will ensure the Director,
Reporting Compliance, Wage and Investment Division, coordinates with the Director, Campus
Reporting Compliance, Small Business/Self-Employed Division, to ensure these cases are
reviewed, and cases warranting examination will be selected for audit.
We plan to monitor the IRS’s progress in verifying the 862 potentially erroneous Schedule L
QMV deductions we identified and will report the amount of increased tax liability for those
QMV deductions disallowed in our annual filing season reports.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure Tax Examiners review the tax returns of the 462 individuals
who TIGTA identified as claiming the QMV deduction on Schedule A during the period
May 29, 2010, to November 12, 2010, to ensure these individuals qualify for the deduction.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Reporting Compliance, Wage and Investment Division, will coordinate with the
       Director, Campus Reporting Compliance, Small Business/Self-Employed Division, to
       ensure these cases are reviewed, and cases warranting examination will be selected for
       audit.
Recommendation 2: Ensure Tax Examiners review the tax returns of the 862 individuals
who TIGTA identified as claiming the QMV deduction on Schedule L to ensure these
individuals qualify for the deduction.


                                                                                          Page 7
                            Millions of Dollars in Questionable
                            Qualified Motor Vehicle Deductions
                                     Are Being Allowed



       Management’s Response: IRS management agreed with this recommendation. The
       Director, Reporting Compliance, Wage and Investment Division, will coordinate with the
       Director, Campus Reporting Compliance, Small Business/Self-Employed Division, to
       ensure these cases are reviewed, and cases warranting examination will be selected for
       audit.

Verification Is Inadequate, Which Resulted in the Allowance of
Excessive Qualified Motor Vehicle Deductions
For those cases meeting IRS examination criteria, the IRS is not requesting or receiving
documentation supporting the purchase of a QMV prior to closing these tax returns as warranting
no reduction in the QMV deduction and associated tax refund. As a result, individuals received
more than $73,418 in questionable tax refunds.
We identified 3,026 individuals claiming approximately $104 million in QMV deductions on
Schedules L processed through June 4, 2010, that were identified by the IRS as having a
deduction of more than the amount which the IRS classifies as excessive. The results of the
IRS’s verification of these tax returns as of July 31, 2010, are as follows:
•   944 (31 percent) were not verified for QMV deduction eligibility, which includes
    17 individuals who qualified for examination relief through Combat Zone Tax Relief. These
    tax returns claimed QMV deductions totaling $30 million.
•   1,152 (38 percent) were in the process of being verified.
•   930 (31 percent) were verified and tax assessments were made on $40 million in QMV
    deductions claimed.
Our review of a judgmental sample of 120 of the 944 tax returns closed with no reduction to the
QMV deduction identified:
•   Cases incorrectly closed without documentation supporting excessive QMV deductions.
    Our review identified 53 (44 percent) of 120 tax returns met the IRS’s dollar criteria for
    initiating an examination. However, all 53 cases were incorrectly closed without requesting
    and/or receiving documentation supporting the purchase of a QMV. IRS management
    indicated that Tax Examiners did not follow the IRS’s Miscellaneous Deduction procedures
    for examining these tax returns.
•   Cases closed as not meeting the IRS’s dollar criteria for examination. Our review
    identified 65 (54 percent) of 120 tax returns did not meet the IRS’s dollar criteria for
    initiating an examination and were closed with no reduction to the amount of the QMV
    deduction. The IRS uses the dollar criteria in an effort to maximize limited Tax Examiner
    resources. To meet the dollar criteria for initiating an examination, the tax return correction


                                                                                             Page 8
                            Millions of Dollars in Questionable
                            Qualified Motor Vehicle Deductions
                                     Are Being Allowed



    would have to result in a sizeable increase to an individual’s taxable income and/or a
    significant tax or credit change which would affect an individual’s refund or balance due.
•   Cases closed that were not subject to enforcement action. Our review identified
    *****1***** of 120 tax returns qualified for examination relief through Combat Zone Tax
    Relief.
The Office of Management and Budget has established five broad requirements that all agencies
must follow in order to meet accountability objectives relating to Recovery Act funds. These
requirements are posted on the Recovery.gov web site. The third requirement is that Federal
agencies ensure Recovery Act funds are used for authorized purposes and take the steps needed
to prevent instances of fraud, waste, and abuse. The IRS has not established processes to ensure
individuals are appropriately claiming the QMV deduction. In addition to the IRS not requesting
any third-party information to verify QMV deductions claimed, the forms used to claim the
deduction (Schedule A and Schedule L) do not require individuals to provide information which
could serve as a deterrent for those individuals who intend to erroneously claim these deductions.
As we previously mentioned, the IRS failed to identify 4,257 individuals claiming what the IRS
defines as an excessive QMV deduction during tax return processing to hold and prevent the
possible issuance of erroneous tax refunds. These individuals claimed a total of more than
$151.1 million in QMV deductions.
In addition, the processes that the IRS established to verify the 3,026 QMV deductions the IRS
identified as having an excessive claim are also resulting in the erroneous release of tax refunds.
Our testing has identified that the IRS is not ensuring Tax Examiners are taking the necessary
steps to verify the validity of the QMV deductions, but are instead releasing erroneous refunds
even though individuals did not provide required documentation. As such, potentially erroneous
refunds are being released without any attempt to verify the legitimacy of the QMV deduction
the IRS identified as being excessive and potentially erroneous.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Review all tax returns identified as a result of an excessive QMV
deduction that met examination criteria but were closed with no reduction in the QMV deduction
to evaluate whether the Tax Examiners’ actions were correct.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will review the 7 returns that were not sent to the Examination function for audit
       consideration, and will rescreen the 909 returns where Miscellaneous Deduction
       procedures may not have been followed. The Director, Reporting Compliance, Wage and
       Investment Division, will coordinate with the Director, Campus Reporting Compliance,


                                                                                            Page 9
                             Millions of Dollars in Questionable
                             Qualified Motor Vehicle Deductions
                                      Are Being Allowed



       Small Business/Self-Employed Division, to ensure these cases are reviewed, and cases
       warranting examination will be selected for audit.
Recommendation 4: Ensure Tax Examiners are taking appropriate steps prior to closing
excessive QMV deduction cases.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has already revised the instructions for its Tax Examiners. Revisions to the Internal
       Revenue Manual procedures for the QMV deduction claimed on Schedule A posted to
       the Servicewide Electronic Research Program on January 31, 2011, and procedures for
       Schedule L posted on February 16, 2011. These procedures will be published in the
       January 1, 2012, revision of the Internal Revenue Manual.

Erroneous Qualified Motor Vehicle Deductions Were Allowed to
Ineligible Individuals Even Though the Internal Revenue Service Had
Data to Identify These Claims During Tax Return Processing
We identified 473 cases for which information that the IRS maintains identifies these individuals
as ineligible to claim about $1.02 million in QMV deductions they were allowed. These
individuals were allowed to erroneously claim these deductions because the IRS did not develop
procedures to identify individuals who were in prison, deceased, or under the age needed to enter
into a contract to purchase a motor vehicle. Figure 4 shows the breakdown of the ineligible
individuals who were allowed to erroneously claim the QMV deduction.
                               Figure 4: Ineligible Individuals
                               Who Claimed a QMV Deduction
                                                       Number of           Amount
                         Type of Individual            Individuals         Allowed
                 Prisoner                                      439         $955,843
                 Deceased                                       16           $36,490
                 Under the Age of 15                            18           $31,139
                 Total                                         473       $1,023,472
                Source: TIGTA analysis of IRS Individual Returns Transaction File Data.

Prisoners deducted $955,843 in sales tax for the purchase of vehicles in 2009
even though they were in prison for the entire year
We determined that 439 prisoners who filed tax returns as single or head of household were
allowed QMV deductions totaling $955,843 for the purchase of a vehicle in 2009 even though
they were in prison for a full year in 2009 when the vehicle was purportedly purchased. The IRS

                                                                                          Page 10
                            Millions of Dollars in Questionable
                            Qualified Motor Vehicle Deductions
                                     Are Being Allowed



has data that can be used when a tax return is processed to identify prisoners erroneously
claiming this deduction.

Deceased individuals were allowed $36,490 in QMV deductions
We identified 16 individuals who were deceased prior to the date qualified vehicle purchases
must have taken place—after February 16, 2009, and before January 1, 2010. These erroneous
QMV deductions totaled $36,490. The IRS has data that can be used when a tax return is
processed to identify deceased individuals erroneously claiming this deduction.

Underage individuals were allowed $31,139 in QMV deductions
We identified 18 individuals under the age of 15 who were allowed $31,139 in QMV deductions.
Standard business practice generally does not permit a minor to enter into a contract to purchase
a motor vehicle. The IRS has data that can be used when a tax return is processed to identify the
age of the individuals erroneously claiming this deduction.
We plan to monitor the IRS’s progress in verifying the 473 tax returns with these unlikely
claims. We will report the amount of increased tax liability for those QMV deductions
disallowed in our annual filing season reports.

Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should ensure Tax
Examiners review the tax returns of the 473 individuals we identified as being in prison,
deceased, or underage to ensure these individuals qualify for the deduction.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Reporting Compliance, Wage and Investment Division, will coordinate with the
       Director, Campus Reporting Compliance, Small Business/Self-Employed Division, to
       ensure these cases are reviewed, and cases warranting examination will be selected for
       audit.




                                                                                             Page 11
                                 Millions of Dollars in Questionable
                                 Qualified Motor Vehicle Deductions
                                          Are Being Allowed



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the effectiveness of the IRS’s efforts to identify individuals
erroneously claiming the QMV deduction. To accomplish this objective, we:
I.       Assessed the actions taken by the IRS to identify erroneous QMV claims.
         A. Participated in a walkthrough at the Submission Processing Site in Fresno, California,
            and identified the efforts taken by IRS Tax Examiners to identify erroneous QMV
            claims.
         B. Interviewed IRS management and analysts in Code and Edit, Error Resolution, and
            Examination functions to identify steps taken to verify the accuracy of QMV claims.
II.      Determined if the IRS ensured whether 4,365 individuals claiming QMV deductions in
         excess of the QMV deduction limit on Standard Deduction for Certain Filers
         (Schedule L) qualified for the deduction.
         A. Identified Tax Year1 2009 individual income tax returns with 1,339 Schedule L QMV
            deductions claimed over the QMV deduction limit with no appropriate Unallowable
            Codes totaling $547,826,101 processed nationally on the Individual Return
            Transaction File2 between January 16 and June 4, 2010,3 to determine whether the
            excessive QMV deductions were allowed. Of these 1,339 QMV deductions claimed,
            we identified 761 tax returns where the deductions were actually allowed.
            Subsequently, we identified another 101 Schedule L tax returns with excessive QMV
            deductions from the IRS’s Individual Return Transaction File, which contained
            90,046 Schedule L QMV deductions totaling $141,295,141, between June 5 and
            November 12, 2010.
         B. Identified Tax Year 2009 individual income tax returns with 3,026 Schedule L QMV
            deductions claimed over the QMV deduction limit with certain Unallowable Codes


1
  Tax Year is the period of time when records are kept and income is reported on a tax return. For most people, it is
a calendar year.
2
  The IRS database that contains data transcribed from initial input of the original individual tax returns during
return processing.
3
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information Services
validated the data that were extracted, and we verified the accuracy of the data by reviewing the IRS’s Integrated
Data Retrieval System for a judgmental sample of 25 individuals. The Integrated Data Retrieval System is an IRS
computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records.
                                                                                                            Page 12
                           Millions of Dollars in Questionable
                           Qualified Motor Vehicle Deductions
                                    Are Being Allowed



          totaling approximately $104 million processed nationally on the Individual Return
          Transaction File from January 16 to June 4, 2010, to determine the results of
          examination by the IRS. We selected a judgmental sample of 120 tax returns from
          the no change examination results where the individuals’ Adjusted Gross Income was
          greater than $10,000 to determine whether the IRS contacted the individual for
          documentation to support the QMV deduction. A judgmental sample was taken
          because we wanted to show a control weakness to prompt management to take
          corrective action.
III.   Determined if individuals accurately claimed the QMV deduction on their tax returns.
       A. Selected a statistically valid sample of 150 tax returns filed in Tax Year 2009 and
          processed between January 16 and June 4, 2010, from the Individual Return
          Transaction File that contained 4,113,849 records of individuals who were allowed a
          QMV deduction equal to or less than the QMV deduction limit on Itemized
          Deductions (Schedule A) and Schedule L that totaled about $5.9 million to assess the
          actions taken by the IRS to validate this deduction. We used attribute sampling to
          calculate the minimum sample size n, which was rounded to 150:
           n = (Z2 p (1-p))/ (A2)
           Z = Confidence Level:           90 percent (expressed as 1.65 standard deviation)
           p = Expected Rate of Occurrence: 5 percent
           A = Precision Rate:             ±3 percent
          Used a third-party research tool to locate motor vehicle records and determine the
          validity of the date of purchase. When the third-party research tool did not have
          motor vehicle information, we contacted the Departments of Motor Vehicles to obtain
          motor vehicle records for the States where the individuals who claimed the QMV
          deductions on their tax returns resided.
       B. Determined the potential lost revenue for individuals who were allowed the QMV
          deduction in error by using a statistical projection.
IV.    Identified prisoners who were allowed the QMV deduction and determined if prisoners
       accurately claimed the deduction.
       A. Matched individuals who claimed the QMV deduction on Tax Year 2009 tax returns
          to the IRS’s 2009 Prisoner File and identified prisoners who were allowed the QMV
          deduction.
       B. Matched only Prisoner File individuals in single or head of household status.
       C. Matched only Prisoner File individuals in jail for the entire tax year.



                                                                                          Page 13
                                Millions of Dollars in Questionable
                                Qualified Motor Vehicle Deductions
                                         Are Being Allowed



V.      Determined whether the IRS allowed ineligible individuals the QMV deduction.
        A. Identified QMV deduction accounts that showed a date of death prior to
           February 17, 2009.
        B. Identified QMV deduction accounts where the individual was under the age of 15.
VI.     Identified corrective actions the IRS planned to initiate to ensure individuals who claimed
        QMV deductions over the QMV deduction limit on Schedule A qualified for the
        deduction.
        A. Followed up with the IRS to determine if the 2,933 Schedule A tax returns with a
           QMV deduction of more than the QMV deduction limit that TIGTA identified in the
           2010 Filing Season audit4 have been examined.
        B. Subsequently, we identified 462 Schedule A tax returns with excessive QMV
           deductions from the Individual Return Transaction File which contained
           164,911 Schedule A QMV deductions totaling $286,857,125 between June 5 and
           November 12, 2010.
        C. Followed up with the IRS and determined whether programming has been
           implemented to identify and freeze the tax refunds of individuals who claimed more
           than the QMV deduction limit on Schedule A.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the American Recovery and Reinvestment
Act of 2009,5 Internal Revenue Manual, Standards for Internal Control in the Federal
Government,6 and the IRS’s policies, procedures, and practices for processing the QMV
deduction. We evaluated these controls by interviewing management, examining applicable
information, and reviewing samples of tax returns with QMV deductions.




4
  Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season (Reference
Number 2010-41-128, dated September 30, 2010).
5
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
6
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1).
                                                                                                         Page 14
                          Millions of Dollars in Questionable
                          Qualified Motor Vehicle Deductions
                                   Are Being Allowed



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Gwendolyn Gilboy, Lead Auditor
Karen Fulte, Senior Auditor
Kathleen Hughes, Senior Auditor
Jonathan Lloyd, Auditor
Marcus Sloan, Auditor
James Allen, Information Technology Specialist
Robert Carpenter, Information Technology Specialist




                                                                                    Page 15
                         Millions of Dollars in Questionable
                         Qualified Motor Vehicle Deductions
                                  Are Being Allowed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Electronic Tax Administration and Refundable Credits SE:W:ETARC
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 16
         Millions of Dollars in Questionable
         Qualified Motor Vehicle Deductions
                  Are Being Allowed



                                               Appendix IV

Management’s Response to the Draft Report




                                                    Page 17
Millions of Dollars in Questionable
Qualified Motor Vehicle Deductions
         Are Being Allowed




                                      Page 18
Millions of Dollars in Questionable
Qualified Motor Vehicle Deductions
         Are Being Allowed




                                      Page 19
Millions of Dollars in Questionable
Qualified Motor Vehicle Deductions
         Are Being Allowed




                                      Page 20
Millions of Dollars in Questionable
Qualified Motor Vehicle Deductions
         Are Being Allowed




                                      Page 21
